No. 19-163

3111 Mbe

&upreme Court of tbe Entteb &tutus
•
MARGARET A. NORTON,
Petitioner,

v.
COLGATE PALMOLIVE COMPANY,
Respondent.

•
On Petition For A Writ Of Certiorari
To The Supreme Court Of New Jersey
•
PETITION FOR REHEARING
•
MARGARET A. NORTON, Pro Se

505 Elizabeth Avenue, Apt. 2E
Newark, New Jersey 07112
862-215-8390
iluveumar@yahoo.com

RECEIVED
NOV 13 2mq

TABLE OF CONTENTS
Page
Table of Contents
Table of Authorities

ii

Petition for Rehearing

1

Factual Background

1

Reasons for Granting the Petition

3

Substantial Grounds not previously presented exist under the Fifth and Four4
teenth Amendments' due process clause
Substantial Grounds not previously presented exist under the New Jersey Constitution Article 1, Section 1, Rights and
6
Privileges
Conclusion

8

Certificate of Pro Se

9

11

TABLE OF AUTHORITIES
Page
CASES
Brown v. City of Galveston, Tex., S.D.Tex. 1994,
870 F.Supp. 155

6

Desalle v. Wright, C.A. 7 (Ill.) 1992, 969 F.2d 273

5

DeShaney, supra, 489 U.S. at 199-200, 109 S.Ct.
at 1005-1006, 103 L.Ed.2d at 262

6

Daugherty v. Wallace, 621 N.E.2d 1374 (Ohio
Ct.App.1993)

7

Meyers v. Defiance (1940), 67 Ohio App. 159, 21
Ohio Op. 165, 36 N.E.2d 162

7

Morrison v. State, 252 S.W.2d 97 (Mo. Ct. App.
1952)

7

CONSTITUTIONAL PROVISIONS
Fourteenth Amendment due process clause provides "nor shall any state deprive any person
of life, liberty, or property without due process
of law"

4

Fifth Amendment due process clause provides
no states shall deprive any "person of life, liberty, or property without due process of law"

4

New Jersey Constitution, Article 1, Section 1,
3, 6, 8
Rights and Privileges
Declaration of Independence

3

1
PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.1 petitioner
Margaret A. Norton respectfully petitions this Court
for rehearing of its October 15, 2019 Order denying the
Writ of Certiorari in this case. Petitioner moves this
Court to grant this petition for rehearing and consider
this case with merits briefing and argument. Pursuant
to Supreme Court Rule 44.1, this petition for rehearing
is filed within 25 days of this Court's decision in the
case.

•
FACTUAL BACKGROUND
This is a personal injury case in which the petitioner had been using the respondent's Colgate great
regular flavor toothpaste that is sold over-the-counter,
and contains the Sodium lauryl sulfate (SLS) ingredient. The petitioner was experiencing from the toothpaste severe dry mouth, no saliva, irritation, burning
and tingling sensation in the mouth. Petitioner later
discovered through the respondent's SLS-free Prescription Only toothpaste advertisement that the respondent had knowledge that the SLS ingredient used
in toothpaste pose a danger of multiple adverse side
effects.
The respondent announced on their new Colgate
PreviDent 5000 Dry Mouth Prescription Only SLS-free
toothpaste advertisement, that the ingredient SLS
pose a danger of irritation and dryness, with a motive
to compel dry mouth suffers to want the new SLS-free

2
toothpaste, but failed to announce such a warning on
their Colgate great regular flavor toothpaste that contains the SLS ingredient, and is sold over-the-counter.
The respondent also announced on their new Colgate
PreviDent 5000 Dry Mouth Prescription Only SLS-free
toothpaste 2nd advertisement, that Sodium Lauryl
Sulfate increases sensitivity to the oral mucosa. But
failed to announce such warning on their Colgate great
regular flavor toothpaste in which contains the Sodium
Lauryl Sulfate ingredient, and is sold over-the-counter.
In addition, petitioner also presented evidence of
a copy of the respondent's footnoted Clinical Research
Study, footnoted from the Colgate PreviDent 5000 Dry
Mouth Prescription Only SLS-free toothpaste advertisement, in which the respondent used the clinical
study to back their claims of multiple adverse effects
of the SLS ingredient, but failed to warn of the SLS
ingredients' adverse effects on their Colgate great regular flavor toothpaste that contains the Sodium Lauryl
Sulfate (SLS) ingredient, and is sold over- the-counter.
In the June 28, 2017 Order with Statement of Reasons the trial court held that plaintiff cannot demonstrate a Prima facie case of negligence without expert
testimony. That a witness qualified as an expert was
needed to assist the trier of fact to understand the evidence, using N J R E 702. The trial court also opined
that expert testimony is necessary to prove there is a
causal link between a claimed injury and the tortuous
act alleged under Kelly v. Borwegan, 95 N.J. Super. 240,
243-44 (App. Div. 1967) However, the Trial Court further found that "she does mention evidence that the

3
court did not consider". (App. 20) The Opinion of Honorable Judge Spencer is acknowledging that a mistake
affected the outcome of the judgment. (App. 20)

•
REASONS FOR GRANTING THE PETITION
This case has national significance. Inalienable
rights are involved in this case, therefore, process is
due. Significant grounds not previously presented are
that of the procedural due process clause of the Fifth
and Fourteenth Amendment of the United States Constitution, and the New Jersey Constitution, Article 1,
Section 1, Rights and Privileges. We all have unalienable rights. The Declaration of Independence in which
provides; "We hold these truths to be self-evident, that
all men are created equal, that they are endowed by
their Creator with certain unalienable Rights that
among these are Life, Liberty and the pursuit of Happiness."

•
THE QUESTION PRESENTED
Whether the New Jersey Supreme Court erroneously failed to apply Supreme Court Precedent, when
an Acknowledged Error resulted in an Improper Judgment, in which violated the right of fairness.
This Court misapprehended the facts concerning
petitioner's claim of violation of her right to fairness.
This was the fault of the petitioner because she failed

4
to use the proper Constitutional clause to support her
claim of right of fairness. Petitioner was using the
Fourteenth Amendment's Equal Protection of the Law
clause in which provides; "nor shall any state[
deny any person within its jurisdiction the equal protection of the laws".
Petitioner argued that she had an unfair trial because she was not treated the same as the defendant
because her evidence was not considered, in which was
unfair and improper.
This Court misapprehended the facts concerning
petitioner's claim of violation of her right to fairness
in relation to the respondent made statements denouncing the SLS ingredient on their SLS-free toothpaste advertisement, and omitted the warnings about
the SLS ingredient's adverse effects on their overthe-counter toothpaste product that contains the SLS
ingredient. Petitioner was using the Fourteenth
Amendment's Equal Protection clause in which pro] deny any person
vides; "nor shall any state [
within its jurisdiction the equal protection of the
laws". Petitioner was using the wrong Constitutional
clause to support her claim that is why this court misapprehended the facts.
Rehearing is Appropriate because:
I Substantial grounds not previously presented
exist under the Fifth and Fourteenth Amendment's
due process clause, in which provides; "nor shall any
state deprive any person of life, liberty, or property,

5
without due process of law". The Fifth and Fourteenth
Amendment stand on equal footing.
Honorable Judge Spencer opined that "she does
mention evidence that the court did not consider".
Honorable Judge Spencer is acknowledging that a
mistake in which the evidence that was not considered, affected the outcome of the judgment. (App. 20)1
The action of the lower court in denying petitioner's case without considering the evidence interfered with petitioner's constitutional right to pursue
and obtain safety.
The final decision in this case was not based on the
evidence presented in the case. "Fourteenth Amendment applies only to deprivation of liberty or property
interest; to have interest, person must have legitimate
claim or entitlement to benefit". DeSalle v. Wright, C.A.
7 (Ill.) 1992, 969 F. 2d 273. Petitioner has a liberty interest of safety. The right to pursue safety is an inalienable right declared by the Constitution of the
United States, it is one of the fundamental privileges
and immunities of a citizen of the United States. See
Slaughter-house cases 16. Wall. 57
The respondent made statements denouncing the
SLS ingredient on their SLS-free toothpaste advertisement. The respondent omitted the warnings about the
SLS ingredient's adverse effects on their over-thecounter toothpaste product that contains the SLS
Motion for reconsideration dated June 28, 2016 Opinion of
Honorable Judge Spencer J.S.0 "she does mention evidence that
the court did not consider". (App. 20)

6
ingredient. This action by the respondent violated petitioner's due process Rights. Brown v. City of Galveston, Tex., S.D. Tex. 1994, 870 F. Supp. 155.
The lower court deprived petitioner of her Constitutional right to pursue and obtain safety under both
the New Jersey Constitution, Article 1, Section 1,
Rights and Privileges and the Fourteenth Amendment's due process clause. In DeShaney, supra, 489
U.S. at 199-200,109 S.Ct. at 1005-1006, 103 L.Ed.2d at
262. The court states "It is the state's affirmative act of
restraining an individual's ability to act on his own behalf which triggers the protection of the Due Process
Clause, "not its failure to act to protect his liberty interests against harms inflicted by other means." Id. at
200, 109 S.Ct. at 1006,103 L.Ed.2d at 262. The trial
court's denial of petitioner's case without considering
the evidence, restricted petitioner's ability to act on her
own behalf, thereby depriving her of the protection of
the'Due Process Clause, and the fundamental right of
fairness.
Rehearing is appropriate because:
II Substantial grounds not previously presented
exist under the New Jersey Constitution Article 1, Section 1, Rights and Privileges.
New Jersey Constitution, Article 1, Section 1,
Rights and Privileges
All persons are by nature free and independent,
and have certain natural and unalienable rights,

7
among which are those of enjoying and defending life
and liberty, of acquiring, possessing, and protection
property, and of pursuing and obtaining safety
and happiness.
In Daugherty v. Wallace, 621 N.E.2d 1374 (Ohio
Ct.App.1993) The appeals court states "the language of
Section 1, Article I must be interpreted as a guarantee
of rights". See Meyers v. Defiance (1940), 67 Ohio App.
159, 21 Ohio Op. 165, 36 N.E.2d 162. The entire clause,
when read as a whole, must be interpreted to place a
restriction on the exercise of governmental powers and
not to bestow affirmative obligations on the state. The
state is restricted by the clause from wholly interfering
with a citizen's inalienable right to pursue and enjoy
life and liberty, to acquire and possess and protect his
property, and to seek and obtain happiness and safety,
but has no affirmative duty to provide for the exercise
of these inalienable rights.
In Meyers u. Defiance, supra, the court of appeals
stated: "The right to seek and obtain happiness and
safety is one of the inalienable rights of mankind, so
declared by the Constitution, and guaranteed by that
instrument". Inalienable is defined as incapable of being surrendered or transferred; at least without one's
consent. Morrison v. State, 252 S.W.2d 97, 101 (Mo. Ct.
App. 1952).
The trial court's denial of petitioner's case due to
"evidence that the court did not consider" interfered
with petitioner's Constitutional right to pursue and obtain safety under both the New Jersey Constitution,

8
Article 1, Section 1, Rights and Privileges and the
Fourteenth Amendment's due process clause prohibiting deprivation of life, liberty, or property without due
process of law".

•
CONCLUSION
Based upon the forgoing, this Honorable Court
should grant rehearing and schedule Merit briefing
and argument.
Date: November 11, 2019

MARGARET A. NORTON
Pro se
505 Elizabeth Ave.,
Apt. 2E
Newark, NJ 07112
(862) 215-8390
iluveumar@yahoo.com

9
CERTIFICATE OF PRO SE
I hereby certify that this petition for rehearing
from the denial of certiorari is presented in good faith
and not for delay, and that it is restricted to the
grounds specified in Rule 44.2 namely intervening circumstances of substantial or controlling effect, or substantial grounds not previously presented.

MARGARET A. NORTON

